                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          QFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDlTM

Case Number: Al1020012                                                                         Page 1 ofl



                We assessed an allegation of plagiarism in an NSF proposal. I The proposal touts a
         pUblication2 of one of the coPIs, which is alleged to duplicate results reported in an earlier
         publication by others. 3 Our assessment showed that the coPI was aware of the previous
         publication, cited it in an earlier review,4 and that the work.cited in the NSF proposal was
         accurately described.

                  There is no substance to the allegation.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
